APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of appeals opinion,
April 23, 2019 ......................................... 1a

Appendix B:

Sentencing transcript,
December 28, 2018 ................................ 6a

1a
APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 18-48-cr
UNITED STATES OF AMERICA,
APPELLEE,
v.
JOHN J. GOTTI, MICHAEL GUIDICI, MATTHEW
RULLAN, AKA FAT MATT,
DEFENDANTS
and
VINCENT ASARO,
DEFENDANT-APPELLANT.
Decided: April 23, 2019
Before HALL, and LYNCH, Circuit Judges,
GARDEPHE, District Judge.
SUMMARY ORDER
Vincent Asaro appeals from the district court’s judgment sentencing him to 96 months’ imprisonment and
three years’ supervised release following his conviction

2a
for using a telephone to facilitate arson, in violation of the
Travel Act, 18 U.S.C. § 1952 (a)(3)(B). We assume the parties’ familiarity with the underlying facts and procedural
history, which we describe only as necessary to explain
our decision to affirm.
We review a district court’s sentencing decision for
reasonableness under an abuse-of-discretion standard.
United States v. Skys, 637 F.3d 146, 152 (2d Cir. 2011). In
so doing, we review factual findings for clear error and
rulings of law de novo. United States v. Pica, 692 F.3d 79,
89 (2d Cir. 2012). The district court did not exceed the
bounds of its discretion when it sentenced Asaro to 96
months’ imprisonment followed by 3 years’ supervised release.
The principle articulated in United States v. Watts,
519 U.S. 148, 157 (1997), that “a jury’s verdict of acquittal
does not prevent the sentencing court from considering
conduct underlying the acquitted charge, so long as that
conduct has been proven by a preponderance of the evidence,” guides our decision in this case. An acquittal does
not necessarily mean a jury found the defendant innocent;
rather it indicates there exists reasonable doubt as to his
guilt. Id. at 155. After the Supreme Court’s decision in
United States v. Booker, 543 U.S. 220 (2005), we reaffirmed that under Watts a district court may consider acquitted conduct at sentencing. United States v. Vaughn,
430 F.3d 518, 527 (2d Cir. 2005) (holding that “district
courts may find facts relevant to sentencing by a preponderance of the evidence, even where the jury acquitted the
defendant of that conduct.” (internal citations omitted)).
The district court did not err when it considered acquitted conduct in sentencing Asaro. The court found Asaro’s long history of violent behavior to be proven by “not

3a
only just a preponderance of the evidence but by overwhelming evidence” based on Asaro’s 2015 RICO trial at
which the government presented evidence of crimes alleged to have been committed by Asaro during a period of
over forty years. App. 153. While acknowledging that
Watts allows sentencing judges to consider acquitted conduct, Asaro argues that judges may only consider related
acquitted conduct and that Asaro’s past alleged crimes
are not related to the present crime because the arson was
“the result of a personal vendetta fueled by road rage.”
Appellant’s Br. 25.
We are not persuaded. Under Watts, the distinction
between unrelated and related conduct is irrelevant. In
Watts, the Supreme Court approved the consideration of
acquitted conduct at sentencing as evidence of the defendant’s “character and conduct,” holding that such consideration would not “result in ‘punishment’ for any offense
other than the one of which the defendant was convicted,”
but rather would recognize that the “present offense was
carried out in a manner that warrants increased punishment.” 519 U.S. at 155. Here, although the 1969 murder
and the 1978 robbery did not “stem from a common nucleus of operative fact” as the 2012 arson offense, those
earlier offenses nevertheless informed the court’s assessment of the danger Asaro posed to the community, in light
of his “lifelong history of violent crime,” and spoke to the
level of specific deterrence needed—each of which the
court found relevant under § 3553(a) in exactly the way
approved by Watts. That history also informed the district
court’s understanding of the seriousness of the present
crime. Asaro’s insistence that the instant offense “was not
an organized crime-related [crime]” is belief by the fact
that he used organized-crime associates whom he could
command because of his status as a crime boss. The crime

4a
was thus not merely an isolated instance, however reprehensible, of road rage, but an example of his continued
ability to exert the power of the underworld to intimidate
and harm law-abiding citizens.1
Asaro also asserts defense counsel was ineffective
when counsel failed to advise him about the possibility
that the judge may rely on acquitted conduct when imposing a sentence. Asaro asks that we hold this appeal in
abeyance and remand to the district court for an evidentiary hearing on that claim.
When faced with an ineffective assistance of counsel
claim on direct appeal, “we may do one of three things: (1)
decline to hear the claim, permitting the appellant to raise
the issue as part of a subsequent § 2255 petition; (2) remand the claim to the district court for necessary factfinding; or (3) decide the claim on the record before us.”
Billy-Eko v. United States, 8 F.3d 111 (2d Cir. 1993). This
circuit has a “baseline aversion to resolving ineffectiveness claims on direct appeal.” United States v. Leone, 215
F.3d 253, 256 (2d Cir. 2000). This aversion, however, is not
a rigid rule and “in no way limits our discretion to hear an
ineffective assistance of counsel claim on direct appeal, or,
when appropriate, to remand such a claim” for further
fact-finding. Id.

Even if we accept Asaro’s argument that a sentencing judge cannot
consider unrelated acquitted conduct, his claim is without merit. This
arson and his past conduct are related because all of his relevant actions involve organized crime. Asaro relied on crime family associates
to carry out the arson of John Doe’s car—every single individual involved was affiliated with a local crime family. Asaro may have been
personally offended when John Doe cut his car off, yet Asaro utilized
his crime family connections to carry out the arson.

1

5a
On the record before us, we do not have the facts necessary to assess appropriately Asaro’s ineffective assistance of counsel claim.2 We thus refrain from deciding it.
We have considered Asaro’s remaining arguments and
find them to be without merit.
The judgment is AFFIRMED.

Whether Asaro’s trial counsel would have informed him of the possibility that the acquitted conduct could be considered at sentencing
and whether knowing that he would have definitely gone to trial is
beyond the record before us.

2

6a
APPENDIX B

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
- - - - - - - - - - - - - - - - - - - - - - - - - - - -X
UNITED STATES OF AMERICA, 17-CR-127 (AR)
Plaintiff,
-against-

United States
Courthouse
Brooklyn, New
York

VINCENT ASARO,

Friday,
Defendant.
December 28, 2017
2:00 p.m.
- - - - - - - - - - - - - - - - - - - - - - - - - - - -X
TRANSCRIPT OF CRIMINAL CAUSE
FOR SENTENCING
BEFORE THE HONORABLE ALLYNE ROSS
UNITED STATES SENIOR DISTRICT JUDGE
A P P E A R A N C E S:
For the Government:

BRIDGET ROHDE, ESQ.
Acting United States Attorney
Eastern District of New York
271 Cadman Plaza East
Brooklyn, New York 11201
BY: NICOLE M. ARGENTIERI, ESQ.
LINDSAY K. GERDES, ESQ.
KEITH DANIEL EDELMAN, ESQ.
Assistant United States Attorney

7a

For the Defendant:

ELIZABETH E.
MACEDONIO, P.C.
40 Fulton Street, 23rd Floor
New York, New York 10038
BY: ELIZABETH E. MACEDONIO, ESQ.
AND
CARLA SANDERSON LAW
260 Madison Avenue, Floor 22
New York, New York 10016
BY: CARLA M. SANDERSON, ESQ.

Court Reporter:

DAVID R. ROY, RPR
225 Cadman Plaza East
Brooklyn, NY 11201
drroyofcr@gmail.com

Proceedings recorded by Stenographic machine shorthand, transcript produced by Computer-Assisted Transcription.

8a
[2] (In open court.)
THE COURTROOM DEPUTY: United States of
America against Vincent Asaro, Docket Number CR-17127.
Counsel, please state your name for the record.
MS. ARGENTIERI: Good afternoon, Judge. Nicole
Argentieri, Lindsay Gerdes, and Keith Edelman for the
United States. With us at counsel table are special agents,
FBI Special Agents Robert Ypelaar, Y-P-E-L-A-A-R, and
Adam Mininni. And also present is Probation Office Kristen McKeown, which is M-C-K-E-O-W-N -- yes?
MS. MCKEOWN: Yes.
MS. ARGENTIERI: Okay.
MS. MCKEOWN: Good afternoon, Your Honor.
THE COURT: Good afternoon.
MS. MACEDONIO: Good afternoon, Your Honor.
Elizabeth Macedonio and Carla Sanderson.
THE COURT: Good morning.
MS. MACEDONIO: As the Court is aware, Ms. Sanderson is participating in the mentoring program here in
the Eastern District. And with the Court’s permission,
she will be speaking in part today.
THE COURT: Yes, that would be lovely, Counsel.
MS. MACEDONIO: Thank you.
THE COURT: I have received the presentence report; two addenda to the presentence report; a submission
[3] dated October 30th from you, Ms. Macedonio, which
annexes a great number of exhibits; a December 13th letter from you; December 13th letter from the Government.
There is the lengthy – I am sorry, I did not bring it up –

9a
but the Government’s addenda to its sentencing letter; another letter dated December 19th from you, Ms. Macedonio. I did not bring the volume up. There is a volume in
the letter that was not brought up.
Is that the complete sentencing record?
MS. MACEDONIO: There is also a letter from me
dated December 20th.
THE COURT: Is that what related to the bail issue?
MS. MACEDONIO: Yes.
THE COURT: The health issues?
MS. MACEDONIO: Yes.
THE COURT: I read that.
Is that a complete sentencing record?
MS. MACEDONIO: For Defense, yes.
MS. ARGENTIERI: And, Your Honor, just a note for
the record, the date of our lengthy sentencing submission
was November 20, 2017.
THE COURT: Yes.
MS. ARGENTIERI: Okay.
THE COURT: Okay. I have read that.
[4] Ms. Macedonio, I am sure you reviewed all of that
with your client; is that correct?
MS. MACEDONIO: That’s correct, Judge.
THE COURT: Okay.
Mr. Asaro, are you satisfied that you have had enough
time to go over with Ms. Macedonio everything that I just
mentioned and everything else that you believe is related
to your sentence?

10a
THE DEFENDANT: Yes.
THE COURT: Okay.
All right. Ms. Macedonio, why don’t you go ahead or
with assistance, go ahead.
MS. MACEDONIO: Judge, I’m going to begin and
then I’m going to have Ms. Sanderson make some comments on the law.
THE COURT: Okay.
MS. MACEDONIO: I know that this case has been
fully briefed and I know Your Honor has studied it carefully, so I am not going to repeat every ailment of Mr. Asaro. I certainly had a log in my submission. But what it
comes down to, Judge, is Mr. Asaro is here today to be
sentencing for an arson. He is sentenced for an arson that
occurred five and a half years ago, a crime which occurred
on a public street in which no one was hurt. This is a crime
for which he quickly accepted responsibility for. [5] The
parties now agree that his guideline range is 33 to 41
months, but as he approaches his 83rd birthday and his
health is rapidly deteriorating, the Government is asking
for a sentence in excess of 15 years. What they are really
asking for, Judge, is a life sentence for an arson.
The Government is not asking you to consider acquitted conduct. They are not asking you to sentence -- they
are not asking you to consider the acquitted conduct of
3553(a) factors. Really what they are asking you to do,
Judge, is to sentence him for the acquitted conduct. They
are not asking you to sentence him for the crime of conviction. They are asking you to sentence him purely to
crimes that he was acquitted of which allegedly occurred
50 and 60 years ago.
The law calls for the sentence to be imposed upon Mr.

11a
Asaro to be sufficient, but not greater than necessary for
the crime of conviction. His sentence must be reasonable
under all of the factors, but under no test, under no test
can what the Government -- for what the Government is
asking for can be deemed to be reasonable, and there is a
reason for that. In essence what the Government is asking you to do, Judge, is to take the American Justice System and turn it on its head. They are asking that when a
defendant is acquitted of conduct, the Government can
then, years later, indict him for something else and then
have him [6] sentenced for all of the crimes that he was
acquitted of. What they are asking for is simply unprecedented, and they cite you no case which allows for such an
outcome.
With the Court’s permission, Ms. Sanderson is going
to address the law.
MS. SANDERSON: Yes, Judge. In the Watts case
and all the cases of precedence, those are cases having to
do with calculation of relevant conduct under the guidelines, and under Watts, which is a specific case that permits that, the conduct is permitted to be included as relevant conduct, not for punishment for that acquitted conduct -THE COURT: No, right. But as it relates to the individual and -MS. SANDERSON: As it relates -THE COURT: -- as it relates to the sentencing factor
-MS. SANDERSON: Correct.
Specifically in Watts with regard to manner of commission of the crime to relevant conduct that was acquitted with relevance in that case and a line of cases, such as

12a
in Vaughn, increasing a drug resource, for example, which
is -- it is really distinct from what the Government is asking the Court to do in this case, which is to consider acquitted conduct from a past trial, a past case that has
nothing to do with the manner in which the arson crime
was [7] committed.
THE COURT: But that was not exactly how I understood the Government’s argument, honestly. But I will let
them speak for themselves.
Anything further from the lawyers?
MS. SANDERSON: No, Your Honor.
MS. MACEDONIO: But I would just like to turn to
the 3553(a) factors.
THE COURT: Yes.
MS. MACEDONIO: I mean, I think it is very clear
that Mr. Asaro is an ill man. I have brought with me just
the medical records that I have received from the MDC
since his March incarceration. Just for the record, there
is probably eight inches of medical documents here. I did
not submit them as part of my sentencing submission.
They are here if anybody wants to review them, but that
is what they are.
He has been to the hospital five times since March.
Since his incarceration in 2014, it is clear that the Bureau
of Prisons, despite what they say, they are simply incapable of caring for him. He had kidney stones, and they
botched it to such a degree that -- they shackled him to a
bed for a week and removed his prostate instead of just
the kidney stone. He then was sent to the hospital during
a discharge of incarceration for what was called [8] cardiac
testing. Again, an 82-year-old man shackled to a bed with
no participation from his family for a week, and then he

13a
had a stent put in. After that extremely dangerous surgery -THE COURT: Did you ever confirm -- when you said
presumably the stent was put in, did you ever confirm
that?
MS. MACEDONIO: I was unable to confirm that because the medical records are just unclear. He underwent
some -THE COURT: I assumed there was a reason you did
not give me the records.
MS. MACEDONIO: Yes.
And he then returned to the MDC and put in the SHU
with no medical care at all. I mean, their idea of medical
care is let’s test his pressure. If it’s dangerously low, we
will either ignore it, or maybe we will send him to the hospital, or they will adjust his medication to make it dangerously low. He is not receiving medical care, Judge. There
is just no other way to describe it. Again, yesterday his
blood pressure was tested. It is dangerously high. It’s at
stroke level, and they just sent him back to the unit. They
are not caring for him; I mean, certainly not in any medical standard that is appropriate in this country.
I think in looking forward what we need to consider is
not only his medical condition, but his advanced [9] age
and what was going on in his life between his acquittal in
November of 2015 and his re-arrest in March of 2017,
what was Vincent Asaro doing? Well, there was no big
welcome home party. There was no indication that he was
caught up in the ongoing investigation of the Bonanno
crime family that clearly was going on since there were
subsequent indictments. He was home cooking meals for
his family, going to medical appointments. He had no unexplained wealth. He didn’t even have a car. Whatever

14a
his life was in the past, it was over. He was home taking
care of what a man at 82-year-old -- at 82 years of age
needs to take care of, his health.
Quite frankly, Judge, I think that the guideline sentence in this case is more than appropriate. I think that is
what is called for in this case, and that is what he should
be sentenced to.
Unless the Court wants to hear something else? I just
don’t want to keep repeating everything that I have -THE COURT: No, I understand, because it was all
within your papers.
MS. MACEDONIO: And we have briefed this fully. I
think the guideline sentence is appropriate.
Thank you, Judge.
THE COURT:
would like to say?

Mr. Asaro, is there anything you

[10] THE DEFENDANT: I have a piece of paper.
THE COURT: You can read something, sure.
THE DEFENDANT: I would like to apologize for the
car that was burned. It was a stupid thing I did. I’m terribly sorry. I was on my way home, it happened. It just
got out of hand. I was two blocks from my house and was,
you know, cut off, and I’m terribly sorry, all right?
What my life was in the past, I honestly have to say it’s
over. I’m going to be 83 in two months. And that’s it. I
would like to apologize to the Court, and thank you for this
speaking opportunity.
THE COURT: Ms. Argentieri?
MS. ARGENTIERI: Judge, on the law, I’m not sure
if you want to just hear from us on the law. But we cited

15a
Watts for the proposition that basically the Court is not
bound by the jury’s verdict. It can considered acquitted
conduct.
THE COURT: I understand that. I think the law,
however it is, is very clear.
MS. ARGENTIERI: Okay.
THE COURT: And it will remain quite clear.
MS. ARGENTIERI: Okay. So I’m not going to -- I’m
not going to belabor that.
THE COURT: Okay.
MS. ARGENTIERI: So, Judge, you know, in speaking [11] about today, you know, what is the sentencing?
What is the Court supposed to consider at sentencing?
And I think that what you’ve just heard from the defendant and defense counsel is they want you to take a snapshot of Mr. Asaro today and say sentence him as he sits
here in this chair. And that’s not what a 3553(a) or Congress really directs us to do. What it says quite clearly is
you’re supposed to look at the history and characteristics
of the defendant. That’s in their statue. Who is this defendant? What choices has he made? How did he live his
life? And you know, Judge, you know better than anyone,
it wasn’t as a working man or working legitimate jobs supporting his family. That’s absurd.
You know, and it’s true that today he is elderly and he
is sick, but he is not beyond the care of the Bureau of Prisons. I spoke to them today. They gave me a quite a different picture of his blood pressure yesterday, and they
said that, in fact, and this was attached to our filings, there
are four levels of care that are required by defendants in
custody, 4 being the worst. They had assessed him at a
Level 2. So they are more than qualified to care for his

16a
medical needs. And while he may be -- prefer at this point
in his life -- it would be more comfortable for him to be
treated by a private physician, that’s just not the standard
at sentencing.
[12] This defendant has dedicated his life to crime and
a crime family. And, Judge, you’ve heard that on recording after recording in his own words. Those were crimes
that paid for his life, his children’s lives, his gambling
habit. Crime, quite simply, has paid for this defendant.
And you heard him on recording after recording. His age,
he was -- it was not a handicap for him in organized crime.
It wasn’t when he committed this arson a couple years
ago, and it hasn’t been for the years before that. You
heard him on recording after recording saying, I’m here
for 30 years. I am only -- all I got left is my age. I’m only
-- the only wise guy left in the neighborhood.
And, you know, while it’s true that having the defendant be in jail is sad for his blood family, and that is a difficult thing, that’s true for all families, and it’s really a result of his own choices. You know, if you look at the
choices he made, he inducted his own son into the crime
family. He taught him the life. It’s because of his choices
that his son sits in jail serving a 90-month sentence that
you give him, Judge, for moving the body of Paul Katz.
That’s who the defendant is. That’s his history and characteristics. Not only did he induct his son into the crime
family, he directed him to move the body, and his son is
serving that time for what he asked him to do, for what he
taught him. And that is not even getting into the [13] impact of what the defendant did to the Katz family. And I
think that that is a murder that everyone knows that he
committed. We proved it at trial through recordings, witnesses, and expert testimony, and his son stood in the
courtroom and told you that he moved that body.

17a
This defendant has never been held accountable for
his history and characteristics. History and characteristics that empowered him, emboldened him at the age of
almost 80 to commit the crime he committed in this case.
That’s why it’s relevant. That’s why at almost 80 years
old, he could commit this arson, which wasn’t something
that happened in a flash of anger. It wasn’t he was on his
way home and all of a sudden, the car was burned. It happened over the next few days. What happened in this -and that leads us to the nature the circumstances of the
effect, the other thing that 3553(a) directs us to look at:
How did he come to be 80 years old and able to order an
organized crime associate to burn a car of a civilian? How
did that happen? You know, this is something that happened within the last couple of years. It’s not an ancient
crime we’re asking you to sentence him for. He used his
position and reputation as a respected wise guy in the
neighborhood, a reputation earned through years of committing crimes, the lure that is Vincent Asaro, the
Lufthansa heist, loan sharking, bookmaking, all of it. And
someone cuts him off [14] in traffic, and what does the defendant do? He chased him through the neighborhood.
The man was in fear for his life. He called 911. His started
trying to activate the red light cameras because he wanted
the police to come, and he was terrified and he should have
been.
What did the defendant do next? He called upon the
means of his crime family, means that were available to
him because of his position. He contacted a Gambino associate with ties to the NYPD. He had the license plate
run of the person who cut him off in traffic. Think about
that. He is corrupting our institutions that are there to
protect people, and he can do that because of who he is,
because of his life of crime.

18a
And then -- you know, and that just shows how dangerous he is, even -- I know it’s, like, laughable. He’s 80,
he’s not dangerous. He accomplished this crime at a very
severe age, and it’s a very dangerous crime. It’s a dangerous crime. And he reaches out to CW Number 1, who this
defense counsel has referred to in another case as a oneman crime wave. He’s -- and -- and he’s a benign associate
at the time. He’s just started out in organized crime. He’s
building his representation. He’s in robbery, bookmaking. He’s a young Vincent Asaro in the making. And the
defendant trades on his street cred and association with
the crime family and the desire of CW 1 to be just like him,
[15] to be a made guy. And he tells him, Go burn the car.
And that’s just what CW 1 does. And that is the circle of
organized crime, Judge. It goes round and round and
round, generation after generation.
And that brings us to deterrence. That’s the other
thing that 3553(a) directs us to do. This defendant was
incarcerated from his arrest in January of 2014 to his acquittal in November of 2015. The defendant is going to
received credit for that 22 months that he was in jail and
for the seven months or eight months he had been on the
case. If you sentenced him to time served for four to five
years, the guideline sentence, he is going to walk out that
door. And, Judge, that is not justice in this case. It is just
not. This is a notorious crime figure. He has engaged in
a lifetime of crime, and he has served in his entire life less
than nine years in jail.
At the time, LCNs, they’re watching, all the people
who are about to be the next generation who revered this
defendant, it’s time to send a message. It’s time to break
the circle. This defendant walked out of the courtroom in
November of 2015. He walked out to cameras and press
attention, and what did he say? He joked about a body

19a
being in the trunk of the car. He was a hero to everyone
in his neighborhood. And it’s time for you today, Judge,
to send a message. General deterrence in this case, the
[16] importance of it, cannot be understated.
And then finally, Judge, you know, Congress mandated that for the crimes that the defendant committed -for the crimes he pled guilty to, sometimes no time would
be appropriate, and sometimes 20 years would be appropriate. And that causes you to question, in what cases did
they think 20 years would be appropriate? And, Judge,
this is that case. He’s got associates in the region for the
violent criminal organization, the only family he ever
cared about. You know that from recording after recording. He is not worrying about his family. You know, he is
complaining about his son constantly who is now serving
a 90-month sentence for something he asked him to do.
This is a crime in which he used the sophisticated means.
He used a law enforcement database to victimize a civilian. If not in this case, a sentence above 15 years, then
when?
And so, Judge, I think that what we are asking you today is just to hold him accountable for who he is now, for
the choices that he has made that gave him the power he
had to commit the crime he pled guilty to, which is the life
he has lived and the lives that he has ruined.
Thank you.
MS. MACEDONIO: May I respond briefly?
THE COURT: Sure.
MS. MACEDONIO: I think the Government’s [17]
presentation really brings it home that it is not about the
arson. It’s merely about the acquittal, you know, what he
said when he left the courtroom.

20a
THE COURT: I do not think she is saying -- I am just
telling you how I understand her. I understand her to be
referring to the statutory factors, the history and characteristics of the defendant. That is how I understand it.
MS. MACEDONIO: When she makes the comment
such as, He -- quote, He killed Paul Katz, and everybody
knows it, clearly that is not the case. And so as the Government sits there, and he just -- take Mr. Edelman out
and put Ms. Cooley there, it is the same group of people
that have brought this case again. The arson that he is
going to be sentenced for and the time that he receives for
that should be reasonable under the standard set forth by
the sentence served. We also cannot have a situation
where we are creating a complete disparity in sentencing
between the other two defendants that are going to be
sentenced for this.
I ask that Your Honor sentence him to the guidelines
in the sentence given all the 3553(a) factors, including his
health.
THE COURT: Vincent Asaro is before me for sentencing after pleading guilty to a travel act violation [18]
under 18 U.S.C. Section 1952(a)(3)(b). Specifically, he allocuted to using a telephone in interstate commerce to direct that Bonanno Family associates set fire to a car. This
case does not mark the first time that Mr. Asaro has been
in my courtroom. I was the judge who presided over his
trial in October to November of 2015 for numerous Rico
violations that occurred over the course of 45 years, between 1968 and 2013. The testimony and other evidence
at that trial, which I will discuss further later, was that the
defendant was a long-time member of the Bonanno Family, who committed numerous violent acts, rose to the level
of captain, and eventually acted as a member of the commission.

21a
The guidelines range in this case is undisputed. Both
parties, as well as the Department of Probation, now
agree that the defendant has a criminal history category
of 2 and an adjusted offense level of 19, with a base offense
level of 20, a two-point increase for an aggravating role,
and a three-point decrease for acceptance of responsibility.
This makes his guidelines range of imprisonment from
33 to 41 months. I agree with the calculations.
But this is not the end of the sentencing inquiry. Under Booker and Gall, I also must consider the various factors enumerated in Section 3553(a) in order to fix an appropriate sentence in this case.
First among these factors are the nature and [19] circumstances of the offense and the history and characteristics of the defendant. Both weigh heavily toward granting the upward variance requested by the Government.
The facts of this case are simple and largely undisputed.
While driving in Howard Beach on April 1st, 2012 Vincent
Asaro got into a road rage incident with another motorist.
Mr. Asaro followed the other man’s car for a protracted
period, got his license plate, had a Bonanno Family associate run the plate in a law enforcement database to determine the other motorist’s home address, and then directed a Bonanno Family associate to set fire to the motorist’s car. The defendant says in his sentencing memorandum that he requested that the car be burned as opposed to directing it, and he did not know that Matthew
Rullan and John Gotti would be involved in the arson. But
these are distinctions without a meaningful difference.
The relevant conduct is that the defendant asked that a
car be set on fire solely because its driver had cut him off
in traffic, and someone else carried out his will. And the
defendant was able to command others to do this deed for

22a
him because he was a high-level member of the Bonanno
Family who has been active in mob-related activities for
over forty years.
I see no mitigating circumstances to this crime. The
arson was a senseless act of violence that suggests that
the defendant poses a significant and ongoing threat to
the [20] general public. I find it troubling that Mr. Asaro
nursed enough of a grudge from simply being cut off in
traffic that he not only followed a member of the public for
an extended period, terrorizing him, but also had an associate find out his home address and then ordered the
man’s car to be burned to a crisp days later. I also find
concerning that, despite his relatively advanced age and
supposed infirmities, the defendant continued to wield the
power to direct or request other people to carry this act
out. This act shows that as recently as 2012, Mr. Asaro
not only had an explosive temper, but he also had the ability to carry out his threats and the desire to carry out revenge after the heat of the moment had passed. Defense
counsel argues that Mr. Asaro has “outbursts” but quickly
becomes calm again. This crime shows that his anger does
not always soon subside.
None of this is surprising, however, when viewed in
the context of the history and characteristics of the defendant. The testimony and other evidence introduced at
his 2015 trial showed not only just by a preponderance of
the evidence but by overwhelming evidence that Mr. Asaro has lived a life of violence. As trial judge, I had the
opportunity to observe the demeanor of the witnesses and
to make first-hand assessments of their credibility. And I
have since reviewed my notes and the transcript from the
trial. I was particularly impressed by the testimony of
Mr. Asaro’s [21] cousin, Gasper Valenti. Although Mr.
Valenti was a cooperating witness for the Government, his

23a
testimony was forthright, credible, and corroborated in
numerous details. I also note that the testimony of the
Government’s witnesses in the 2015 trial were corroborated not only by other witnesses, but also by audio recordings of the defendant by Mr. Valenti, who wore a wire,
among other things. In these recordings, the defendant
boasted of being a "wise guy" for numerous years and of
the dirty deeds he had done to earn his place in the mob.
I give particular weight to two crimes committed by
the defendant, the murder of Paul Katz and the Lufthansa
heist.
Mr. Valenti testified that the defendant said that he
and Jimmy Burke had strangled Paul Katz to death because Katz was cooperating with law enforcement. Mr.
Valenti described standing watch as the defendant buried
Katz’s body, and how he later poured lime and cement
over the hole. He also testified that the defendant had
told him and the defendant’s son, Jerome Asaro, to move
the body in the 1980s and that they did so. This testimony
was corroborated by Jerome Asaro’s guilty plea before
me where he admitted to moving the body of a person he
knew to have been murdered.
Valenti’s testimony was also corroborated by significant physical evidence. A forensic anthropologist, [22]
Bradley Adams, testified that he recovered human remains of an adult male from where Valenti said they buried the body. And a criminalist, Frances Rue, who testified that based on a comparison of the DNA of Katz’s family members, the DNA profile that she developed from
these remains appeared to be that of Paul Katz.
As for the Lufthansa heist, Mr. Valenti credibly testified that the defendant played a leading role. Again, this

24a
testimony was amply corroborated. For example, cooperating witnesses Salvatore Vitale and Anthony Ruggiano
testified that the defendant had jewelry from the
Lufthansa heist. And most damningly, the defendant
himself corroborated his involvement in his comments
about the wake of Henry Hill, whose life was the basis for
the film Goodfellas. In a recorded conversation with
Valenti, the defendant implicitly admitted, in highly profane terms, his involvement in the Lufthansa heist. These
are but the two most dramatic incidents in a long life of
crime, but two are enough to make the point.
I also note that, while these two incidents took place
many years ago, the testimony at the defendant’s 2015
trial established that he remained involved in loansharking up until 2013. And his guilty plea in this case showed
that he remained a powerful player within the Bonanno
Family, capable of orchestrating violent acts as of 2012.
[23] Although the defense is correct that I am not required to consider this acquitted conduct in sentencing
Mr. Asaro, I will exercise my discretion to do so. I am
mindful of the weight that I must give to the jury’s verdict
of acquittal, but I nonetheless am firmly convinced that
the Government proved Mr. Asaro’s conduct by more
than a preponderance of the evidence. And I can imagine
few things that are more relevant to the factors that I
must consider under Section 3553(a) than the defendant’s
lifelong history of violent crime. This conduct also shows
that the guidelines significantly underestimate Mr. Asaro
by assigning him to a criminal history category of 2.
Given Defendant’s history, I do not credit the defense’s assertion that Mr. Asaro has become a changed
man since this crime took place in 2012. He is now 82, but
he was already 77 years old at the time of this offense.

25a
On the other side of the ledger, Mr. Asaro’s poor
health and advanced age are significant mitigating personal characteristics. I must give these factors considerable weight because they mean that each year of imprisonment will be harder on him than they would be on a
younger and healthier man.
I will not summarize the defendant’s entire medical
history, but the list of medications he takes is long. Alongside the aches and pains and indignities of aging, he [24]
also suffers from more serious health conditions, including hepatitis C, hypertension, and serious cardiac problems. He underwent a triple bypass in 2013, and then had
another heart surgery in 2016. Heart problems run in his
family. His father and only brother both died at a relatively young age of heart attacks. His mother died of an
aneurysm in her heart, and his three sisters all have heart
problems.
Although counsel has not provided any recent medical
records, I credit her assertions that defendant’s health
has been deteriorating during his time at the Metropolitan Detention Center. But I do want to indicate that my
staff has been in communication with officials at MDC.
We were informed them that defendant’s recent hospitalizations have been due to trouble with his blood pressure
medications, that they have adjusted his medication regimen, and that his most recent blood pressure readings
were normal. I don’t know what happened today, but I am
speaking about the time that I was notified, which was
several days ago. I do have confidence that he will receive
better medical care at a federal correctional institution.
As for the letters from friends and family submitted
with the defense sentencing memorandum, I do give them
some but marginal weight. Mr. Asaro may well be a loving

26a
man to his family, but that has not stopped him from inflicting violence on others who have families of their own.
[25] These letters depict him as a frail grandfather, but as
long as the defendant can command the loyalty of lowerranking members of La Cosa Nostra, he remains a danger
to the public. It does not matter if he can no longer personally carry out violent acts.
Having laid out the relevant considerations, I must
now weigh them against one another in considering the
purposes of punishment including retribution, deterrence, incapacitation, and rehabilitation. The defense
urges me to impose a sentence of time served based on
Mr. Asaro’s age and state of health, arguing that any
lengthy period of incarceration will likely amount to a
death sentence. The Government, on the other hand, asks
me to impose a sentence of over 15 years of imprisonment
based on Mr. Asaro’s personal characteristics and criminal history focusing, in particular, on the acquitted conduct.
I have no illusions that Mr. Asaro will be rehabilitated
by a prison stint. Nor do I believe that a prison sentence,
however long, will deter him from future criminal acts,
given his life-long career as a member of the mafia. If he
had not aged out of violent crime by the age of 77, I see
little hope that he will ever do so.
Further, the other sentencing factors that I must consider all militate in favor of a substantial prison sentence.
Although I am sympathetic to Mr. Asaro’s ill [26] health,
I find that the seriousness of the offense, promoting respect for the law, general deterrence, and protecting the
public from the defendant’s crimes, all require me to impose a significant period of imprisonment.

27a
It is necessary to send a message that members of organized crime cannot threaten members of the general
public or destroy their property with impunity. It is necessary to deter others from a life of crime by showing that
there will be real consequences to their crimes. I note
here that, although I am relying on acquitted conduct in
sentencing the defendant, had he been found guilty at the
trial in 2015, he would have been facing far more than the
statutory maximum of 20 years of imprisonment he faces
here.
Finally, and most importantly, a substantial prison
sentence is necessary to protect the public. I see no other
way to do so. I also note that had the defendant pleaded
guilty to the underlying substantive offense of conspiracy
to commit arson, rather than to a violation of the travel
act, he would likely have faced a mandatory minimum sentence of five years of imprisonment, with a maximum of 20
years.
Balancing all the pertinent sentencing factors, I conclude that a sentence of 96 months of incarceration in conjunction with the other aspects of his sentence is sufficient
but not unduly severe to accomplish the sentencing goals
set forth in Section 3553(a). In my view, eight years [27]
of imprisonment is an undeniably serious punishment that
reflects the gravity of the defendant’s offense and criminal history and serves the functions of both general deterrence and incapacitation, while also taking into account
the defendant’s advanced age and his poor health.
Accordingly, I sentence the defendant to the custody
of the Attorney General for a term of 96 months of imprisonment on the sole count of the superseding information.
I also issue an order of restitution in the amount of
$21,276 due immediately and payable at a rate of $25 per

28a
quarter while in custody and 10 percent of gross monthly
income while on supervised release, and I will impose a
period of three years to supervised release with special
conditions that he not associate in person, through mail,
through electronic mail, or telephone with any individual
with any affiliation to any organized crime group, gangs,
or any other criminal enterprise; nor shall the defendant
frequent any establishment or other locale where these
groups may meet pursuant, but not limited to, a prohibition list provided by the probation department. The defendant shall comply with the restitution order.
Upon request, the defendant shall provide the United
Stated Probation Department with a full disclosure of his
financial records, including commingled income, expenses, [28] assets, and liabilities, to include yearly income tax returns, with the exception of the financial accounts reported and noted within the presentence report.
The defendant is prohibited from maintaining and/or
opening any additional individual and/or joint checking,
savings, or other financial accounts for either personal or
business purposes without the knowledge and approval of
the United Stated Probation Department. The defendant
shall cooperate with the probation officer in the investigation, his financial dealings and to provide truthful monthly
statements as income and expenses. He shall cooperate
in the signing of any necessary authorizations, release information forms permitting the U.S. Probation Department access to his financial information or records.
I will not impose a fine, but I will impose the mandatory $100 special assessment.
Mr. Asaro, as you know, you have a right to appeal the
sentence. A notice of appeal -- I am sure Ms. Macedonio
will continue to represent you. A notice of appeal must be
filed within 14 days.

29a
I also recommend that you be designated to an appropriate medical facility. I do not know if you have any requests?
THE DEFENDANT: I would like to go to Danbury
or Fort Dix.
[29] THE COURT: I’m sorry. I did not hear you.
MS. MACEDONIO: He said he’s requesting that the
Court recommend either Danbury or Fort Dix so that he
will be able to see him family.
THE DEFENDANT: Otherwise, I will never see my
family again.
THE COURT: Neither Danbury nor Fort Dix has
particular medical -THE DEFENDANT: I don’t care if I die there.
THE COURT: You do not need the medical facility?
MS. MACEDONIO: I don’t think so.
THE DEFENDANT: I don’t care what happens to
me at this point, Your Honor. What you sentenced me for
is a death sentence anyway, so it doesn’t make any difference.
THE COURT: All right. I am going to recommend
that he be designated to a facility as close as possible to
the New York metropolitan area, but I also recommend
that he be designated to a facility that has ample medical
facilities for Mr. Asaro.
THE DEFENDANT: Your Honor, may I say something?
THE COURT: You should speak to Ms. Macedonio
before you speak -THE DEFENDANT: I don’t understand --

30a
THE COURT: Mr. Asaro -THE DEFENDANT: Yes.
[30] THE COURT: Mr. Asaro, I think the sentence is
concluded.
THE DEFENDANT: Okay. Can I say anything?
MS. ARGENTIERI: Judge, we -THE COURT: Speak with Ms. Macedonio. You have
an attorney and she will speak for you.
THE DEFENDANT: Okay.
MS. ARGENTIERI: We move to dismiss the underlying indictment, Judge.
THE COURT:
missed.

The underlying indictment is dis-

MS. MACEDONIO: Your Honor, the Government
has placed a number of separation orders that would necessarily move this defendant to a facility that’s further
away than necessary. I would ask the Government consider lifting those separation orders in light of the fact
that the defendant has now been sentenced.
THE COURT: I have nothing -MS. MACEDONIO: I understand.
THE COURT: -- to do with that, so... And I appreciate it. You can talk about it in with your client.
(Pause in proceedings.)
THE COURT: Obviously, Mr. Asaro is prohibited
from the possession of any firearm or other destructive
device.
[31] MS. MACEDONIO: Judge, may I get a copy of
today’s sentence, please.

31a
THE COURT: Certainly.
MS. MACEDONIO: Thank you.
MS. ARGENTIERI: Thank you, Your Honor.
THE COURT: Thank you.
(Matter concluded.)
--oo0oo--

